APPENDIX A-1

1193

U.S. v. STANCIL
Cite as 4 F.4th 1193 (11th Cir. 2021)

[29, 30] Moreover, the probative value
of the evidence was not substantially outweighed by undue prejudice. When evaluating a district court’s ruling under Rule
403, we ‘‘view the evidence in the light
most favorable to admission, maximizing
its probative value and minimizing its undue prejudicial impact.’’ United States v.
LaFond, 783 F.3d 1216, 1222 (11th Cir.
2015) (quotation omitted). The district
court gave a limiting instruction three
times to lessen the prejudicial impact of
these messages, cautioning the jury not to
consider the messages as evidence that
Colston had a propensity to commit the
charged crimes. See id. We must presume
that the jury followed that instruction. Id.
So because of the probative value of the
messages and the limiting instructions the
court gave, we cannot say that Colston met
the heavy burden of demonstrating an
abuse of discretion.
* * *
The record is full of evidence that Colston and Pancho were up to no good, and
that she knew the package she was so
eager to pick up contained a controlled
substance. Whether or not the government
understood it on appeal, that knowledge
was enough to convict. And in light of all
the evidence of actual knowledge, the deliberate ignorance instruction was immaterial; our precedent shows that we presume
the jury relied on the actual knowledge
theory. Our precedent also allows for the
evidence of Colston’s history of drug dealing. For all those reasons, we AFFIRM
Colston’s convictions.

,

UNITED STATES of America,
Plaintiff-Appellee,
v.
Jerome Curtis STANCIL, DefendantAppellant.
No. 19-12001
United States Court of Appeals,
Eleventh Circuit.
(July 13, 2021)
Background: Defendant was convicted in
the United States District Court for the
Middle District of Florida, No. 3:18-cr00055-TJC-JRK-1, Timothy Corrigan, J.,
of being felon in possession of firearm, and
he appealed.
Holdings: The Court of Appeals, Grant,
Circuit Judge, held that:
(1) defendant’s Virginia convictions for
possession of cocaine with intent to
distribute and for manufacture, sale,
distribution, or possession with intent
to distribute cocaine and heroin constituted predicate ‘‘serious drug offenses’’ under Armed Career Criminal
Act (ACCA);
(2) magistrate judge did not commit clear
error in crediting police officers’ testimony in denying defendant’s motion to
suppress; and
(3) officers had probable cause to conduct
warrantless search of defendant’s vehicle incident to traffic stop.
Affirmed.

1. Criminal Law O1144.12
When reviewing district court’s denial
of motion to suppress, Court of Appeals
construes facts in light most favorable to
prevailing party.

1194

4 FEDERAL REPORTER, 4th SERIES

2. Criminal Law O1139
Court of Appeals reviews de novo
whether prior conviction is serious drug
offense within meaning of Armed Career
Criminal Act (ACCA).
18 U.S.C.A.
§ 924(e)(1).
3. Sentencing and Punishment O1273
When determining whether defendant’s prior state convictions constitute
‘‘serious drug offenses’’ under Armed Career Criminal Act (ACCA), court is bound
by federal law when interpreting terms in
ACCA, and bound by state law when interpreting elements of state law crimes. 18
U.S.C.A. § 924(e)(1).
4. Sentencing and Punishment O1257
Term ‘‘distributing,’’ as used in Armed
Career Criminal Act’s (ACCA) definition
of ‘‘serious drug offense,’’ does not require
exchange for value.
18 U.S.C.A.
§ 924(e)(2)(A)(ii).
See publication Words and Phrases
for other judicial constructions and
definitions.

5. Sentencing and Punishment O1273
State statute need not exactly match
specific acts listed in Armed Career Criminal Act’s (ACCA) definition for conviction
thereunder to give rise to ‘‘serious drug
offense.’’ 18 U.S.C.A. § 924(e)(2)(A)(ii).
6. Sentencing and Punishment O1273
To determine whether conviction under state statute falls within contours of
Armed Career Criminal Act’s (ACCA) definition of ‘‘serious drug offense,’’ Court of
Appeals generally applies categorical approach, which means court is not concerned about specific facts of defendant’s
prior convictions; instead, court considers
only fact of conviction and offense’s statutory
definition.
18
U.S.C.A.
§ 924(e)(2)(A)(ii).
7. Sentencing and Punishment O1270
When state crime sweeps broader
than Armed Career Criminal Act’s
(ACCA) definitions, that crime cannot cat-

egorically qualify as ACCA predicate. 18
U.S.C.A. § 924(e)(2)(A)(ii).
8. Sentencing and Punishment O1270
When state crime sweeps broader
than Armed Career Criminal Act’s
(ACCA) definitions, Court of Appeals must
presume that conviction rested upon least
of acts criminalized by statute, but inquiry
into minimum conduct criminalized by
state statute must remain within bounds of
plausibility. 18 U.S.C.A. § 924(e)(2)(A)(ii).
9. Sentencing and Punishment O1273
Defendant’s Virginia convictions for
possession of cocaine with intent to distribute and for manufacture, sale, distribution,
or possession with intent to distribute cocaine and heroin constituted predicate
‘‘serious drug offenses’’ under Armed Career Criminal Act (ACCA), even though
statute of conviction criminalized giving or
possessing with intent to give controlled
substance to another only as accommodation, without intent to profit. 18 U.S.C.A.
§§ 924(e)(1), 924(e)(2)(A)(ii); Va. Code Ann.
§ 18.2-248.
See publication Words and Phrases
for other judicial constructions and
definitions.

10. Criminal Law O1158.12
In reviewing denial of motion to suppress, Court of Appeals is bound by district court’s findings of fact, as well as its
credibility choices, unless it sees clear error.
11. Criminal Law O1158.12
In reviewing district court’s denial of
motion to suppress, Court of Appeals must
accept evidence unless it is contrary to
laws of nature, or is so inconsistent or
improbable on its face that no reasonable
factfinder could accept it.
12. Criminal Law O392.49(4)
Magistrate judge did not commit clear
error in crediting police officers’ testimony
in denying defendant’s motion to suppress
evidence found during warrantless search

1195

U.S. v. STANCIL
Cite as 4 F.4th 1193 (11th Cir. 2021)

of his vehicle incident to traffic stop, even
though officers were inconsistent about
their locations relative to car when its
window was lowered, and they mentioned
various details at suppression hearing that
did not make it into their incident reports;
officers testified consistently with each
other as to sequence of events related to
traffic stop, and, where one officer could
not remember certain details, magistrate
judge found that officer’s demeanor
showed he simply could not remember detail of traffic stop. U.S. Const. Amend. 4.
13. Automobiles O349.5(7)
Police officers had probable cause to
conduct warrantless search of defendant’s
vehicle incident to traffic stop; while checking defendant’s driver’s license, officers
noticed smell of burnt marijuana. U.S.
Const. Amend. 4.
14. Sentencing and Punishment O1307
District courts may look to limited set
of evidence, called Shepard documents, to
determine whether crimes were committed
on different occasions, so as to each qualify
as predicate offense under Armed Career
Criminal Act (ACCA).
18 U.S.C.A.
§ 924(e)(1).
15. Sentencing and Punishment O1262
Shepard-approved documents that
court may examine to apply Armed Career
Criminal Act (ACCA) include terms of
charging document, terms of plea agreement or transcript of colloquy between
judge and defendant in which factual basis
for plea was confirmed by defendant, or
some comparable judicial record of this
information. 18 U.S.C.A. § 924(e)(1).
Appeal from the United States District
Court for the Middle District of Florida,
D.C. Docket No. 3:18-cr-00055-TJC-JRK-1
1.

When reviewing a district court’s denial of a
motion to suppress, we construe the facts in
the light most favorable to the prevailing par-

Holly Lynn Gershow, U.S. Attorney’s
Office, Tampa, FL, U.S. Attorney ServiceMiddle District of Florida, Tampa, FL, for
Plaintiff-Appellee
Lynn Palmer Bailey, Federal Public Defender, Federal Public Defender’s Office,
Susan Good Yazgi, Federal Public Defender’s Office, Jacksonville, FL, Rosemary
Cakmis, Law Office of Rosemary Cakmis,
Orlando, FL, for Defendant-Appellant.
Before BRANCH, GRANT, and
TJOFLAT, Circuit Judges.
GRANT, Circuit Judge:
When Jerome Stancil was convicted for
being a felon in possession of a firearm, he
already had three state-law drug convictions. According to the district court, those
Virginia convictions triggered the Armed
Career Criminal Act’s mandatory minimum sentence: 15 years. Stancil appeals,
arguing that his sentence was wrongfully
enhanced because the state statute of conviction criminalizes conduct like sharing
controlled substances. He also argues that
his felon-in-possession conviction should
not stand because the police officers only
found him in possession of a firearm as a
result of an illegal search. But because our
precedents are clear that convictions under
statutes like Virginia’s qualify as predicates for an ACCA sentencing enhancement, and because the officers had probable cause to search Stancil’s car, we find
no error in the district court’s judgment.
We affirm.
I.
[1] Sergeant Adam Ardizzoni of the
Jacksonville Sheriff’s Office was running
laser radar one night when he clocked a
car traveling at 15 miles per hour over the
speed limit.1 He radioed nearby Officer
ty—here, the government. United States v.
Ransfer, 749 F.3d 914, 921 (11th Cir. 2014).

1196

4 FEDERAL REPORTER, 4th SERIES

Rafael Lugo with an alert about the vehicle’s speed. Officer Lugo pulled the car
over, and while he was running the tag, he
saw the driver reach down several times.
Under cover of his spotlight, Officer Lugo
approached the passenger side of the
car—where he saw that the driver was still
reaching down. He radioed for backup,
which arrived in the form of Sergeant
Ardizzoni and another officer, Patrick
Ivey.
No longer alone, Officer Lugo approached the driver’s side window and
made his first contact with the driver,
Jerome Stancil. When Stancil lowered the
window, Officer Lugo asked for his driver’s license, but he also noticed something
inside Stancil’s car—the smell of marijuana. It was a familiar smell to Officer Lugo,
who estimated that he had encountered it
more than 20 times before in earlier traffic
stops. The smell was also familiar to Sergeant Ardizzoni, who had received narcotics training and similarly testified to smelling marijuana when Stancil’s window came
down. Officer Lugo asked Stancil to step
out of his car and ran Stancil’s driver’s
license. That check revealed that Stancil
was a convicted felon on probation.
While Officer Lugo checked Stancil’s license, Officer Ivey searched the car. His
apparent suspicion that he would find contraband was correct; he discovered a Taurus .40 caliber pistol loaded with ten
rounds of ammunition under the driver’s
side floor mat. Officer Lugo handcuffed
Stancil and walked him over to the backseat of the police car. After hearing the
Miranda warning, Stancil decided to talk
and admitted that the firearm was his.
A grand jury charged Stancil with being
a felon in possession of a firearm and
ammunition in violation of 18 U.S.C.
§ 922(g)(1). Stancil moved to suppress the
firearm and ammunition, arguing that they
were the fruit of an unlawful search and
seizure. The motion was referred to a mag-

istrate judge, who conducted an evidentiary hearing where Officer Lugo, Sergeant
Ardizzoni, and Stancil’s son—who had arrived at the scene after the arrest—testified. The magistrate judge recommended
denying the motion to suppress, and the
district court adopted that recommendation.
Stancil waived his right to a jury trial
and agreed to a stipulated bench trial,
though he preserved his right to appeal
the suppression decision. Among other
things, Stancil stipulated that he was a
convicted felon, that he knowingly possessed a pistol, that his pistol was manufactured in Brazil, and that his pistol qualified as a ‘‘firearm’’ within the meaning of
18 U.S.C. § 921(a)(3). Those stipulations
were decisive for the district court, which
found Stancil guilty.
Next came Stancil’s sentencing hearing.
The government presented three of Stancil’s prior convictions, all of which came
under Virginia Code § 18.2-248. The conduct underlying those convictions occurred
in 1996, 1997, and 2004; the first two convictions were for possession of cocaine with
intent to distribute, and the most recent
was for manufacture, sale, distribution, or
possession with intent to distribute cocaine
and heroin. The district court found that
all three qualified as serious drug offenses
under the Armed Career Criminal Act, 18
U.S.C. § 924(e)(1), which meant that Stancil was subject to a minimum sentence of
15 years. The court sentenced him to that
minimum term of imprisonment. Stancil
now appeals.
II.
Stancil raises two real issues on appeal.
He first argues that the district court
erred when it found that he was an armed
career criminal. He next claims that the
district court erred when it denied his
motion to suppress. Stancil also raises var-

U.S. v. STANCIL
Cite as 4 F.4th 1193 (11th Cir. 2021)

ious claims of legal error, but he acknowledges that they are foreclosed by our precedent.
A.
[2, 3] Stancil first contends that none
of his prior convictions qualify as a ‘‘serious drug offense’’ under ACCA. We review
this issue de novo. United States v. Robinson, 583 F.3d 1292, 1294 (11th Cir. 2009).
‘‘When conducting our review, we are
bound by federal law when we interpret
terms in the ACCA and bound by state law
when we interpret elements of state-law
crimes.’’ United States v. Conage, 976 F.3d
1244, 1249 (11th Cir. 2020) (quotation omitted).
Under ACCA, a person who violates
§ 922(g) and has three previous convictions
for a ‘‘serious drug offense’’ that were
‘‘committed on occasions different from
one another’’ is subject to a mandatory
minimum sentence of 15 years’ imprisonment. 18 U.S.C. § 924(e)(1). A ‘‘serious
drug offense’’ includes ‘‘an offense under
State law, involving manufacturing, distributing, or possessing with intent to manufacture or distribute, a controlled substance’’ for which ‘‘a maximum term of
imprisonment of ten years or more is prescribed by law.’’ Id. § 924(e)(2)(A)(ii).
[4, 5] We have construed those terms
broadly. For one, our interpretation of
‘‘distributing’’ does not require ‘‘an exchange for value.’’ Hollis v. United States,
958 F.3d 1120, 1122 (11th Cir. 2020). For
another, we read ‘‘involving’’ to mean that
a state statute ‘‘need not exactly match the
specific acts listed in the ACCA’s definition’’ for it to give rise to a serious drug
offense. United States v. White, 837 F.3d
1225, 1235 (11th Cir. 2016) (quotation omitted); see also Shular v. United States, –––
2.

Under Virginia law, the accommodation
provision serves ‘‘to mitigate the punishment
for the crime of distribution of a controlled
substance.’’ Jones v. Commonwealth, 69 Va.

1197

U.S. ––––, 140 S. Ct. 779, 782, 206 L.Ed.2d
81 (2020).
[6–8] To determine whether a conviction under a state statute falls within those
contours, we generally apply the categorical approach. White, 837 F.3d at 1229.
That means we are not concerned about
the specific facts of the defendant’s prior
convictions. Id. Instead, we consider only
‘‘the fact of the conviction and the statutory definition of the offense.’’ Id. ‘‘When a
state crime sweeps broader than ACCA’s
definitions, that crime cannot categorically
qualify as an ACCA predicate.’’ Beeman v.
United States, 899 F.3d 1218, 1229–30
(11th Cir. 2018). In other words, we ‘‘must
presume that the conviction rested upon
the least of the acts criminalized by the
statute.’’ United States v. Oliver, 962 F.3d
1311, 1316 (11th Cir. 2020) (quotation omitted). But that presumption has limits:
‘‘[t]he inquiry into the minimum conduct
criminalized by the state statute must remain within the bounds of plausibility.’’
United States v. Dixon, 874 F.3d 678, 681
(11th Cir. 2017).
Stancil argues that, whether or not his
past crimes were themselves ‘‘serious drug
offenses’’ under ACCA, the least culpable
conduct under the statute of conviction is
not. All three of his prior convictions were
under Virginia Code § 18.2-248, which provides that it is unlawful to ‘‘manufacture,
sell, give, distribute, or possess with intent
to manufacture, sell, give or distribute a
controlled substance.’’ Va. Code § 18.2248(A). According to Stancil, the least culpable conduct under that statute is giving
or possessing with intent to give a controlled substance to another ‘‘only as an
accommodation,’’ without ‘‘intent to profit
thereby from any consideration received.’’2
App. 582, 822 S.E.2d 19, 23 (2018). ‘‘It is not
a separate offense requiring that the Commonwealth prove different elements.’’ See id.

1198

4 FEDERAL REPORTER, 4th SERIES

Id. § 18.2-248(D). In his telling, that is not
a ‘‘serious drug offense,’’ because ‘‘giving’’
or possessing with intent to ‘‘give’’ a controlled substance does not involve ‘‘manufacturing, distributing, or possessing with
intent to manufacture or distribute.’’ See
18 U.S.C. § 924(e)(2)(A)(ii).
[9] We disagree. We were presented
with a statute similar to § 18.2-248 in
Hollis v. United States; that defendant had
prior convictions under Alabama Code
§ 13A-12-211(a), which provides that a person commits unlawful distribution of a controlled substance if he ‘‘sells, furnishes,
gives away, delivers, or distributes’’ the
substance. Ala. Code § 13A-12-211(a); see
Hollis, 958 F.3d at 1123. There too ‘‘giving
away’’ is the least culpable conduct under
the statute. See Ala. Code § 13A-12-211(a).
We nonetheless held that the defendant’s
prior convictions ‘‘categorically qualif[ied]
as predicate offenses’’ under ACCA. Hollis, 958 F.3d at 1123. In other words, we
found that any violation of the Alabama
statute—including ‘‘giving away’’ a controlled substance—is a predicate serious
drug offense under ACCA.
Another one of our precedents is similarly fatal to Stancil’s case. In United
States v. Robinson, Robinson received an
ACCA enhancement because of his prior
conviction under Alabama Code § 13A-12213(a). 583 F.3d at 1294–95. On its face,
that statute does more than just criminalize possession with intent to give—it criminalizes possession of marijuana ‘‘for other
than personal use.’’ Ala. Code § 13A-12213(a)(1). We affirmed Robinson’s enhancement, reasoning that the statute, in
criminalizing possession for other than
personal use, necessarily ‘‘punishes the
possession of marijuana with the intent to
distribute to another.’’ Robinson, 583 F.3d
at 1296 (emphasis added). Put differently,
our holding was that a conviction for possession of marijuana for other than personal use qualifies as a serious drug of-

fense under ACCA. Id. at 1296–97. So this
Circuit has already rejected Stancil’s argument that possession of drugs with intent
to give them away without a profit motive
is not a serious drug offense.
Stancil resists this logic on two grounds.
First, he argues that because § 18.2-248
prohibits possession with intent to ‘‘manufacture, sell, give or distribute a controlled
substance,’’ the terms ‘‘sell’’ and ‘‘give’’
must include something beyond distribution. Otherwise, Stancil contends, ‘‘sell’’
and ‘‘give’’ would be rendered surplusage.
Even if we credited that argument, however, that would only show that Virginia’s
definition of ‘‘selling’’ or ‘‘giving’’ is different than Virginia’s definition of ‘‘distribution.’’ It would not show that Virginia’s
definition of ‘‘selling’’ or ‘‘giving’’ is different than the federal definition of ‘‘distribution’’ in ACCA. ACCA’s definition is what
matters—and as we already know, it defines ‘‘serious drug offense’’ expansively.
See White, 837 F.3d at 1233.
Second, Stancil argues that ‘‘social sharing among users’’—which in his view is
criminalized by the Virginia statute—is
simply not ‘‘serious,’’ so it cannot be a
serious drug offense. But whether Stancil
thinks his prior convictions are serious or
trivial is irrelevant. Possession for ‘‘social
sharing’’ is possession ‘‘for other than personal use,’’ and it is Robinson that sets the
standard—not Stancil’s subjective impression of the gravity of his past crimes. See
583 F.3d at 1296–97.
In sum, prior convictions under § 18.2248 categorically qualify as serious drug
offenses within the meaning of ACCA. And
Stancil has three of them. So when the
district court applied the ACCA enhancement to Stancil’s sentence, it did not err.
B.
Stancil next argues that the district
court erred when it denied his motion to

1199

U.S. v. STANCIL
Cite as 4 F.4th 1193 (11th Cir. 2021)

suppress because it improperly credited
the officers’ testimony. In particular, he
contends that the officers were inconsistent about their locations relative to Stancil’s car when the window was lowered.
Stancil also points out that the officers
mentioned various details at the suppression hearing—such as finding green leaves
on the vehicle floorboard—that did not
make it into their incident reports. Finally,
he suggests that the magistrate judge
might have credited the officers’ testimonies based on their status as police officers.
[10, 11] In reviewing a denial of a motion to suppress, we are bound by the
district court’s findings of fact, as well as
its credibility choices, unless we see a clear
error. United States v. Roy, 869 F.2d 1427,
1429 (11th Cir. 1989). For credibility determinations, that means we must ‘‘accept the
evidence unless it is contrary to the laws of
nature, or is so inconsistent or improbable
on its face that no reasonable factfinder
could accept it.’’ United States v. RamirezChilel, 289 F.3d 744, 749 (11th Cir. 2002)
(quotation omitted).
[12] We see no clear error in the magistrate judge’s decision to credit the testimonies of Sergeant Ardizzoni and Officer
Lugo. As the magistrate judge noted, the
officers ‘‘testified consistently with each
other as to the sequence of events related
to the traffic stop.’’ Where Lugo apparently could not remember certain details, the
magistrate judge said that it did ‘‘not appear that Officer Lugo was being untruthful; rather, his demeanor showed he simply could not remember this detail of the
traffic stop.’’ And Stancil’s alleged inconsistencies—such as the officers’ relative
positions to his car—do not render the
magistrate judge’s credibility determina3.

We also reject any insinuation that the magistrate judge credited the officers’ testimony
merely because they were police officers. The
magistrate judge explicitly said that courts do

tion ‘‘so inconsistent or improbable on its
face that no reasonable factfinder could
accept it.’’3 Id.
[13] Crediting the officers’ testimony,
as the court was permitted to do, led to the
obvious conclusion that the officers had
probable cause to search Stancil’s car. To
start, Stancil does not argue that the officers lacked probable cause to stop him in
the first place. That means Officer Lugo
was permitted to conduct ‘‘ordinary inquiries incident to the traffic stop.’’ Rodriguez
v. United States, 575 U.S. 348, 355, 135
S.Ct. 1609, 191 L.Ed.2d 492 (2015) (alterations adopted) (quotation omitted). One
such ‘‘ordinary inquiry’’ is ‘‘checking the
driver’s license’’—and it was during that
check that Officer Lugo and Sergeant Ardizzoni noticed the smell of marijuana. Id.
And because ‘‘the smell of burnt marijuana
emanating from a vehicle is sufficient
probable cause to search a vehicle,’’ that
means the officers could search Stancil’s
car—even without considering the natural
suspicion that followed from Stancil’s motions in the car after he was pulled over.
Merricks v. Adkisson, 785 F.3d 553, 560
n.3 (11th Cir. 2015).
C.
Lastly, Stancil alleges various errors so
he can preserve them ‘‘for purposes of
further review.’’ As Stancil acknowledges,
each of these arguments is foreclosed by
prior Supreme Court and Circuit precedent.
[14, 15] First, he argues that the district court violated his Fifth and Sixth
Amendment rights in determining that his
prior predicate offenses occurred on different occasions. More specifically, he contends that the district court could not de‘‘not consider the official rank or status of the
witness’’ in making credibility determinations, and instead relied on the consistency of
the testimonies and Officer Lugo’s demeanor.

1200

4 FEDERAL REPORTER, 4th SERIES

termine that he had prior convictions that
occurred on different occasions because he
never stipulated to those facts and because
the government should have had to charge
those facts in the indictment and then
prove them beyond a reasonable doubt at
trial. But we have already held that district courts may look to a limited set of
evidence, called Shepard documents, to determine whether crimes were committed
on different occasions. See United States v.
Longoria, 874 F.3d 1278, 1281 (11th Cir.
2017). Shepard-approved documents include the ‘‘terms of the charging document, the terms of a plea agreement or
transcript of colloquy between judge and
defendant in which the factual basis for the
plea was confirmed by the defendant,’’ or
‘‘some comparable judicial record of this
information.’’ Shepard v. United States,
544 U.S. 13, 26, 125 S.Ct. 1254, 161
L.Ed.2d 205 (2005). The district court relied on those sorts of documents here, and
did not err in doing so. See AlmendarezTorres v. United States, 523 U.S. 224, 226–
27, 118 S.Ct. 1219, 140 L.Ed.2d 350 (1998).
Second, he asserts that 18 U.S.C.
§ 922(g)(1) exceeds Congress’s authority
under the Commerce Clause.4 But we have
already held that § 922(g) is within Congress’s Commerce Clause powers. See
United States v. Dupree, 258 F.3d 1258,
1259–60 (11th Cir. 2001). So while it is
Stancil’s prerogative to preserve this argument, it cannot succeed here.
* * *
The district court’s judgment is AFFIRMED.

,
4.

To preserve this issue below, Stancil argued
the unconstitutionality of § 922(g)(1) in a
post-trial motion to dismiss his indictment.
The district court denied that motion. We
need not consider whether that motion was

GEORGIA ADVOCACY OFFICE, M.J.,
K.H., on behalf of themselves and others similarly situated, Plaintiffs – Appellees,
v.
Theodore JACKSON, in his official capacity as Sheriff of Fulton County,
Mark Adger, in his official capacity as
Chief Jailer, Meredieth Lightbourne,
in her official capacity as Medical Director, Tyna Taylor, in her official
capacity as Detention Captain, Pearlie
Young, in her official capacity as Detention Lieutenant, Defendants – Appellants.
No. 19-14227
United States Court of Appeals,
Eleventh Circuit.
(July 14, 2021)
Background: Advocacy organization, a
nonprofit dedicated to serving disabled
Georgia residents, and two psychiatrically
disabled female inmates of county jail
brought putative class action against sheriff, chief jailer, prison medical director, and
other prison officials, seeking injunctive
relief and alleging jail conditions violated
the Eighth Amendment, the Fourteenth
Amendment, the Americans with Disabilities Act (ADA), and the Rehabilitation Act
based on practice of confining psychiatrically disabled female inmates to isolation
cells for months at a time as well as the
unsanitary conditions in those cells and
alleged policy of barring female inmates
from receiving jail-based competency restoration services. The United States District Court for the Northern District of
Georgia, No. 1:19-CV-1634-WMR-JFK,
timely to preserve his argument, because under any standard of review, we are bound to
uphold the constitutionality of § 922(g)(1). See
United States v. Dupree, 258 F.3d 1258, 1259–
60 (11th Cir. 2001).

